Report No. D-2011-067                        June 6, 2011




     American Recovery and Reinvestment Act Project-
      "Hospital Replacement Phase I" at Fort Hood,
         Texas, Was Properly Planned; However,
             Transparency Could Be Improved
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AE                    Architect and Engineering
CHCS                  Composite Health Care System
CRDAMC                Carl R. Darnall Army Medical Center
CEFMS                 Corps of Engineers Financial Management System
FAD                   Funding Authorization Document
FAR                   Federal Acquisition Regulation
FBO                   Federal Business Opportunities
MCFAS                 Managed Care Forecasting and Analysis System
MEDCOM                U.S. Army Medical Command
OMB                   Office of Management and Budget
QMAD                  Quantitative Methods and Analysis Division
TMA                   TRICARE Management Activity
USACE                 U.S. Army Corps of Engineers
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                                     June 6, 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)
               COMMANDING GENERAL, U.S. ARMY CORPS OF
                 ENGINEERS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act Project-"Hospital Replacement
         Phase I" at Fort Hood, Texas, Was Properly Planned; However, Transparency Could
         Be Improved (Report No. D-2011-067)

We are providing this report for review and comment. Personnel at the TRICARE Management
Activity and the Army Medical Command ensured that the Recovery Act hospital replacement
project was properly planned and supported. Although TRICARE Management Activity
personnel distributed Recovery Act funds in a timely manner, and the funding authorization
documents identified a Recovery Act designation, personnel at the U.S. Army Corps of
Engineers did not always correctly track Recovery Act planning and design funds or clearly
define and report some planning and design contracting actions. We considered management
comments on a draft of this report when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
from the U.S. Army Corps of Engineers through the Deputy Chief, U.S. Army Corps of
Engineers Headquarters Internal Review Office were partially responsive to the
recommendations. However, we request supporting documentation on corrective actions to
Recommendations l.b., 2.a., and 2.c. by July 5, 2011.

If possible, please send a .pdffile containing your comments to audyorktown@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the ISignedl symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct any questions to me at
(703) 604-8866 (DSN 664-8866).



                                          tiJL~
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-067 (Project No. D2009-D000LF-0245.001)                                                  June 6, 2011


              Results in Brief: American Recovery and
              Reinvestment Act Project—“Hospital
              Replacement Phase I” at Fort Hood, Texas,
              Was Properly Planned; However,
              Transparency Could Be Improved
                                                           Management System to charge a transaction
   What We Did                                             to the Recovery Act hospital replacement
   Our objective was to review the planning,               project instead of a non-Recovery Act-funded
   funding, initial project execution, and tracking        project. We also recommend that the
   and reporting of the project “Hospital                  Commander, USACE-Savannah District
   Replacement Phase I” at Fort Hood, Texas, to            clarify the scope of work in a task order,
   determine whether the efforts of the                    correct postings on www.fbo.gov to properly
   TRICARE Management Activity, the U.S.                   identify the project, post the pre-solicitation
   Army Medical Command, and the U.S. Army                 for task order 0012 on www.fbo.gov, and
   Corps of Engineers (USACE) complied with                ensure the architectural contractor uses the
   the Recovery Act requirements and                       appropriate project title and project location
   subsequent related guidance.                            when reporting recipient information.
   What We Found                                           Management Comments and
   Personnel at the TRICARE Management                     Our Response
   Activity and U.S. Army Medical Command                  The USACE (through the Deputy Chief,
   ensured that the Recovery Act hospital                  USACE Headquarters Internal Review
   replacement project was properly planned                Office) provided comments for each
   and supported. Although personnel at the                recommendation. Management comments
   TRICARE Management Activity distributed                 were partially responsive to the
   Recovery Act funds in a timely manner, and              recommendations; however, we request
   the funding authorization documents                     supporting documentation to show corrective
   identified a Recovery Act designation,                  actions. We request the Commanding
   personnel at the USACE did not always                   General, USACE provide comments in
   correctly track Recovery Act planning and               response to this report by July 5, 2011.
   design funds or clearly define and report               Please see the recommendations table on the
   some planning and design contracting                    back of this page.
   actions. Additionally, design contractors                 Fort Hood Hospital – Concept Design
   reported recipient information as required by
   the Recovery Act, but one contractor reported
   incorrect project information. As a result, the
   use of Recovery Act funds was not always
   clear and transparent to the public.
   What We Recommend
   We recommend that the Commanding
   General, USACE-Headquarters correct the                Photo Provided by: Balfour Beatty/McCarthy with HKS/Wingler and
   funding authorization document and adjust                                       Sharp Architects
   the Corps of Engineers Financial
                                                      i
Report No. D-2011-067 (Project No. D2009-D000LF-0245.001)             June 6, 2011



Recommendations Table

        Management                  Recommendations              No Additional
                                   Requiring Comment          Comments Required
Commanding General, U.S.         1.b.                       1.a.
Army Corps of Engineers-
Headquarters
Commander, U.S. Army Corps       2.a., 2.c.                 2.b.
of Engineers-Savannah
District

Please provide comments by July 5, 2011.




                                              ii
Table of Contents

Introduction                                                            1
      Objective                                                         1
      Recovery Act Background                                           1
      Project Background                                                2
      Review of Internal Controls                                       3

Audit Results                                                           4
      Recovery Act Project Properly Planned                             4
      Distribution of Funds Timely, But Tracking Could Be Improved      5
      Initial Project Execution Generally Adequate for Architect and
         Engineering Contracts; However, Some Contracting Actions Not
         Clearly Defined or Reported                                    7
      Architect and Engineering Contractor Reported Required Recovery
         Act Information, But Task Order Information Was Incorrect      8
      Conclusion                                                        8
      Recommendations, Management Comments, and Our Response            9

Appendix. Scope and Methodology                                         11
     Use of Technical Assistance                                        12
     Use of Computer-Processed Data                                     12
     Prior Audit Coverage                                               13

Management Comments
     U.S. Army Corps of Engineers                                       14
Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” February 17, 2009 (Recovery Act).
Specifically, we reviewed the planning, funding, initial project execution, and tracking
and reporting of the project “Hospital Replacement Phase I,” at Fort Hood, Texas, to
determine whether personnel at the TRICARE Management Activity (TMA), the U.S.
Army Medical Command (MEDCOM), and the U.S. Army Corps of Engineers (USACE)
complied with Recovery Act requirements; Office of Management and Budget (OMB)
Memorandum M-09-10, “Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009,” February 18, 2009; and subsequent related guidance. See the
appendix for a discussion of our scope and methodology.

Recovery Act Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DoD received approximately $7.16 billion 1 in Recovery Act funds for projects that
support the Act’s purposes. In March 2009, DoD released expenditure plans for the
Recovery Act, which listed DoD projects that will receive Recovery Act funds. The
Assistant Secretary of Defense (Health Affairs) received $1.33 billion of Recovery Act
funds for Defense-wide hospital construction.

TMA allocated $118.6 million to Project 74688 “Planning and Design,” which funded the
planning and design efforts for three Recovery Act hospital projects. Of the
$118.6 million, TMA allocated $10.3 million to Project 74650 “Hospital Replacement
Phase I,” Fort Hood, Texas, to support its architect and engineering (AE) efforts. TMA
planned to allocate the remaining funds to support the AE efforts for two other Recovery
Act-funded hospital projects. We are also reviewing those projects and will address them
in separate reports. Additionally, TMA allocated $621 million in construction funds to
Project 74650, the Recovery Act “Hospital Replacement Phase I,” at Fort Hood.


1
  DoD originally received about $7.42 billion; however, Public Law 111-226, Title III, “Rescissions,”
rescinded $260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for U.S.
Army Corps of Engineers civil works projects.


                                                    1
For the purposes of this audit, we considered AE efforts using funds from Project 74688
“Planning and Design” to support the planning efforts for Project 74650 “Hospital
Replacement Phase I,” at Fort Hood. Because the projects are interrelated, we considered
both projects as one effort, referred to in this report as the Recovery Act hospital
replacement project. See additional information in the appendix.

Project Background
DoD constructed the Carl R. Darnall Army Medical Center (CRDAMC) at Fort Hood,
Texas, in 1966. In FY 2009, CRDAMC supported an active duty population of about
49,000 soldiers and more than 5,300 deploying Army Reserve and National Guard
soldiers. The mission of CRDAMC is to provide high quality, customer focused,
accessible, and comprehensive health care in support of contingency operations and the
Army Medical Action Plan.

The CRDAMC Facility Master Plan, updated in 2003, stated that DoD health care
facilities typically provide an adequate environment for 50 years or more depending upon
the level of maintenance and repair over the life of the facility. The master plan also
stated that functional areas, such as Emergency Medicine, Psychiatry, and Physical
Medicine/Physical Therapy, were already at—or near—capacity.

Because of the funding constraints involved with constructing a new hospital, personnel
at TMA and MEDCOM planned for the Fort Hood hospital replacement to be built in two
phases. Phase I is the $621 million Recovery Act hospital replacement project and is
designed to provide space for ambulatory and ancillary services. Phase II is Project
74728, a $306 million inpatient facility and logistics warehouse, and was originally not a
Recovery Act project, but instead, was funded by the Supplemental Appropriations Act
for 2009, Public Law 111-032.

On October 16, 2009, the TMA Director, Portfolio Planning and Management Division,
directed that the two phases of the Fort Hood hospital replacement be combined and
awarded as a single construction effort; however, the two phases were still to be funded
through different appropriations. On November 22, 2010, the DoD Comptroller notified
Congress that because of savings realized from the project “Hospital Replacement
Phase I,” at Fort Hood, Texas, and other Recovery Act-funded hospital projects, the
funding for the Phase II project would be changed from the Supplemental Appropriations
Act to the Recovery Act. The Phase II project is now known as Recovery Act project
74651. This report addresses only the planning, funding, initial project execution, and
tracking and reporting of the Recovery Act hospital replacement project. The figure
below shows the location of the existing hospital and those of the proposed Phase I and
Phase II hospital replacement projects at Fort Hood.




                                            2
        Figure. Aerial View of Existing and Planned Replacement Hospitals

                                                                          Existing
                                                                          Hospital




                                                          Phase I (red)


                    Phase II (blue)




USACE personnel at the Fort Worth, Huntsville, Omaha, and Savannah Districts
supported TMA and MEDCOM personnel by providing contracting and project
management services. These services included awarding the contracts associated with
the Recovery Act hospital replacement project and assigning project managers to oversee
the contracted work.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. Generally, controls over the Recovery
Act hospital replacement project were adequate; however, we identified internal control
weaknesses in the administration of the Recovery Act hospital replacement project as
defined by DoD Instruction 5010.40. USACE personnel did not provide adequate
internal controls over the funding, contract execution, and tracking and reporting efforts
for the Recovery Act project. We discuss these issues in detail in the Audit Results
section of this report. We will provide a copy of the report to the senior official
responsible for internal controls in TMA and the Army.




                                             3
Audit Results
Personnel at TMA and MEDCOM ensured that the Recovery Act hospital replacement
project was properly planned and supported. Although TMA personnel distributed
Recovery Act funds in a timely manner and the funding authorization documents (FADs)
identified a Recovery Act designation, personnel at USACE did not always correctly
track Recovery Act planning and design funds or clearly define and report some planning
and design contracting actions. Although contractors reported recipient information as
required by the Recovery Act, one contractor reported incorrect project information. As
a result, the use of Recovery Act funds was not transparent to the public.

Recovery Act Project Properly Planned
Personnel at TMA and MEDCOM properly planned the $621 million Recovery Act
                        hospital replacement project. They developed a health care
  Personnel at TMA and  requirements analysis using reasonable beneficiary
  MEDCOM properly       population, workload, and staffing data to identify space
  planned the $621      requirements consistent with the Unified Facilities Criteria
  million Recovery Act  4-510-01, “Unified Facilities Criteria – Design: Medical
  hospital replacement  Military Facilities,” July 8, 2009. The Unified Facilities
  project.              Criteria 4-510-01 provides general guidance and procedures
                        for design and construction of military treatment facilities.

We verified the population projections in the health care requirements analysis with
information provided by the Army Patient Administration Systems and Biostatistics
Activity, the Army Stationing and Installation Program, the TMA Managed Care
Forecasting and Analysis System (MCFAS), and the Texas State Demographer.

In their workload projections, TMA and MEDCOM personnel properly included
historical rates of specialty care referrals to local networks or other military treatment
facilities as well as the number of beneficiaries not currently enrolled. CRDAMC facility
planners intend to increase Fort Hood’s capability and capacity in primary care,
pediatrics, general orthopedics, physical therapy, behavioral health, and other medical
areas. An increased enrollment goal was reasonable and supported by the project
documentation. TMA and MEDCOM personnel adequately supported the requirement
for the 606,000 gross square feet planned for the Recovery Act hospital replacement
project by taking into account the projections for eligible population, workload, and
staffing.

When determining solutions for CRDAMC’s hospital needs, MEDCOM completed an
economic analysis that considered the status quo, renovation, renovation/new
construction, new construction, leasing, and relocation to other facilities at Fort Hood.
TMA and MEDCOM personnel recommended new construction as the best solution
based on the economic analysis, CRDAMC’s age, lack of adequate space, and lack of
opportunities for specialty care to beneficiaries.




                                             4
Distribution of Funds Timely, But Tracking Could Be
Improved
TMA personnel distributed Recovery Act funds in a timely manner, and the FADs
identified a Recovery Act designation; however, USACE personnel did not always
correctly track Recovery Act planning and design funds. TMA personnel transferred
$10 million in Recovery Act planning and design funds to personnel at the USACE on
April 1, 2009, and an additional $300,000 on November 12, 2009, for AE efforts
supporting the Recovery Act hospital replacement project. TMA personnel also
distributed $621 million to personnel at the USACE on April 22, 2009, for the
construction of the Recovery Act hospital replacement project.

When personnel at the USACE-Headquarters level transferred $300,000 on
November 19, 2009, to personnel at the USACE-Savannah District, the narrative on the
FAD incorrectly identified the funds as associated with the Phase II inpatient facility
project instead of the Recovery Act hospital replacement project. Because the FAD was
incorrectly coded, USACE personnel also incorrectly coded the Corps of Engineers
Financial Management System (CEFMS) to allocate about $143,000 of the original
$300,000 to the Phase II project. As a result, USACE personnel were unable to track all
Recovery Act funds allocated to the Recovery Act hospital replacement project.
Although, the narrative on the FAD was incorrect, all FADs properly cited Treasury
Appropriation Fund Symbol 97 0501, “Military Construction-Recovery Act,
Defense-Wide” appropriation.

Contracting personnel at the USACE-Fort Worth and Savannah Districts used planning
and design funds to award three task orders in June, August, and September of 2009 and
one task order in January 2010. Additionally, contracting personnel at the USACE-Fort
Worth, Huntsville, and Omaha Districts used Recovery Act planning and design funds to
fund in-house services to support the Recovery Act hospital replacement project. See
Table 1 for a listing of the planning and design activities associated with accomplishing
the project.




                                            5
          Table 1. Separate Planning and Design Activities Supporting the
                     Recovery Act Hospital Replacement Project
             Planning and Design Activities                 Amount (millions)
  Task Order 0046 for Planning Charrette Study                    $ 1.57
  Task Order 0047 for Developing Replacement Athletic                .34
  Complex Request for Proposal
  Task Order 0051 for Developing Hospital Replacement               2.30
  Project Request for Proposal
  Task Order 0012 for Updating Guidelines for Space                  .14
  Planning Criteria for Hospital Replacement Project
  USACE In-house Soil Boring Study for Hospital                      .11
  Replacement Project
  USACE In-house Contract Preparation (Athletic                      .46
  Complex Demolition)
  USACE In-house Labor                                              3.40
     Total                                                        $ 8.32

USACE received $10.3 million, which allowed for approximately $2 million
($10.30 million minus $8.32 million) in potential bid savings. We will continue to
monitor the use of these funds as our review of Recovery Act Project 74688 “Planning
and Design” continues.

Because of the complexity of the Recovery Act hospital replacement project and to
accelerate project execution, personnel at the USACE-Fort Worth District allocated the
$621 million in Recovery Act construction funds to six separate projects. Table 2
provides the actual amounts awarded to each of the six projects.
  Table 2. Recovery Act Projects Awarded for the Construction of Project 74650
                           Projects                      Amount (millions)
  Construction of Recovery Act Hospital Replacement           $ 368.8
  Project
  Construction of Replacement Athletic Complex                    13.5
  Infrastructure – Sanitary Sewer                                 10.2
  Infrastructure – Electrical and Telecommunications               6.3
  Demolition of Athletic Complex                                   1.0
  Utility Relocation                                                .3
      Total                                                   $ 400.1

Although TMA and MEDCOM personnel allocated $621 million in Recovery Act funds
for the Recovery Act hospital replacement project, the actual amount awarded to date is
about $221 million less than the original programmed amount. We will revisit the six
projects when construction efforts are further along, and we can validate the contracting


                                            6
and tracking and reporting actions. We will also continue to monitor the use of Recovery
Act funds for the six projects and the Recovery Act funds reprogrammed to the Phase II
project.

Initial Project Execution Generally Adequate for
Architect and Engineering Contracts; However, Some
Contracting Actions Not Clearly Defined or Reported
Contracting personnel at the USACE-Fort Worth and Savannah Districts awarded task
orders against previously competed contracts, included Federal Acquisition Regulation
(FAR) clauses required by the Recovery Act, and generally performed initial project
execution adequately. However, some contracting actions for planning and design were
not clearly defined or reported.

Architect and Engineering Contracts Competed
Contracting personnel at the USACE-Fort Worth District awarded task orders 0046,
0047, and 0051 on contract W9126G-07-D-0028 on a firm-fixed-price basis. They
awarded three task orders against an existing Indefinite Delivery/Architect Engineer
contract to Parsons Infrastructure and Technology Group Incorporated. Contracting
personnel at USACE-Fort Worth District competed the original contract in 2007.
Contracting personnel at the USACE-Savannah District awarded task order 0012 against
contract W912HN-06-D-0063 on a firm-fixed-price basis. They awarded the task order
against an existing Indefinite Delivery/Architect Engineer contract to HDR Architecture.
Contracting personnel competed the original contract in 2006. Contracting personnel
from USACE-Fort Worth and Savannah Districts included the FAR clauses required by
the Recovery Act.

Some Architect and Engineering Contracting Actions Not
Defined or Reported Correctly
Contracting personnel at the USACE-Fort Worth District failed to post an award notice to
the Federal Business Opportunities (FBO) Web site for one of the four AE task orders.
Additionally, contracting personnel at the USACE-Savannah District did not clearly
define the scope of work that supported the update of guidelines for space planning
criteria in a different task order and failed to post the related pre-solicitation to the FBO
Web site.

Contracting personnel at the USACE-Fort Worth District did not post an award notice for
task order 0051 to the FBO Web site in accordance with the FAR and DoD Acquisition,
Technology, and Logistics Memorandum, “Revised Posting and Reporting Requirements
for the American Recovery and Reinvestment Act of 2009,” August 19, 2009. Without
the necessary posting, USACE-Fort Worth District did not ensure that the use of
Recovery Act funds was clear and transparent to the public. During our review,
contracting personnel at USACE-Fort Worth District corrected the oversight by posting
the award notice to the Web site.




                                             7
Contracting personnel at the USACE-Savannah District posted the award notice for task
order 0012; however, they failed to post the pre-solicitation notice to the FBO Web site.
Additionally, contracting personnel incorrectly listed the project as supporting Travis Air
Force Base instead of the Recovery Act hospital replacement project at Fort Hood, Texas.
Furthermore, contracting personnel did not clearly define the scope of work in task
order 0012 “updating guidelines for space planning criteria.” Although the task order
supported the Recovery Act project, contracting personnel at the USACE-Savannah
District incorrectly defined the project as “… of military medical facilities and
environments, Travis AFB, CA,” rather than Fort Hood, Texas. As a result, by using the
wrong location, personnel at USACE-Savannah District did not ensure that the use of
Recovery Act funds was clear and transparent to the public.

Architect and Engineering Contractor Reported
Required Recovery Act Information, But Task Order
Information Was Incorrect
Both contractors reported recipient information required by the Recovery Act. The
contractors reported the number of jobs, a description of quarterly project activities, and
the total dollar value for the task order award to www.recovery.gov as required by
FAR 52.204-11. However, HDR Architecture incorrectly described the project as
support for Travis Air Force Base instead of the Recovery Act hospital replacement
project at Fort Hood, Texas, because contracting personnel at the USACE-Savannah
District used the wrong location on task order 0012. HDR Architecture also incorrectly
reported the project location as Fairfield, California, instead of Killeen, Texas. As a
result of the incorrect information, personnel at the USACE-Savannah District did not
ensure that the use of Recovery Act funds for task order 0012 was clear and transparent
to the public.

Conclusion
Personnel at TMA and MEDCOM ensured that the Recovery Act hospital replacement
project was properly planned and supported. TMA personnel distributed planning and
design funds in a timely manner, the FADs identified the correct Recovery Act
designation, and contracting actions were generally adequate. However, USACE
personnel did not always correctly track Recovery Act planning and design funds or
clearly define and report some planning and design contracting actions. Furthermore,
although contractors reported recipient information as required by the Recovery Act, one
of the contractors reported incorrect project information. As a result, DoD does not have
reasonable assurance that the use of Recovery Act planning and design funds were
completely transparent to the public.




                                             8
Recommendations, Management Comments, and Our
Response
1. We recommend that the Commanding General, U.S. Army Corps of
Engineers-Headquarters:

       a. Correct Recovery Act funding authorization document 10-0012-01601 to
       reflect Project 74650 instead of Project 74728.

       b. Adjust Corps of Engineers Financial Management System to charge task
       order 0012 “updating guidelines for space planning criteria” to Project 74650
       instead of Project 74728.

U.S. Army Corps of Engineers Comments
The USACE (through the Deputy Chief, U.S. Army Corps of Engineers Headquarters
Internal Review Office) agreed with Recommendation 1.a. to reflect the correct project
number on the funding authorization document. The USACE also agreed with
Recommendation 1.b., and stated that personnel at USACE, Savannah District made the
recommended corrections to the project number, title, and location in CEFMS.

Our Response
We consider comments from the USACE for Recommendation 1.a. as fully responsive
and comments for recommendation 1.b. as partially responsive. After providing the
management comments, USACE provided a copy of the funding authorization document
that showed the corrected project number. Although the USACE’s response met the
intent of Recommendation 1.b., we request that the Commanding General, USACE
provide us with a copy of the updated CEFMS report that shows the correct project
number for the Recovery Act hospital replacement project.

2. We recommend that the Commander, U.S. Army Corps of Engineers-Savannah
District:

       a. Clarify the scope of work in task order 0012, contract
       W912HN-06-D-0063 to specify Project 74650 at Fort Hood, Texas, instead
       of medical facilities at Travis Air Force Base, California.

       b. Correct postings related to contract W912HN-06-D-0063, task order 0012,
       on www.fbo.gov to properly identify the project as Project 74650 and post
       the pre-solicitation for task order 0012 on www.fbo.gov.

       c. Oversee contractor reporting to ensure the contractor, HDR Architecture,
       uses the appropriate project title and project location when reporting
       recipient information required by the Recovery Act.




                                           9
U.S. Army Corps of Engineers Comments
The USACE agreed with all parts of the recommendation. For Recommendation 2.a.,
USACE stated that contract modification 01 modified the contracting language to state
“Recovery Act” and that contract modification 02 corrected the project number, title, and
location in task order 0012. In response to Recommendation 2.b., the USACE stated that
they corrected award postings on www.fbo.gov related to the Recovery Act hospital
replacement project. The USACE also stated that because the contract work was
completed, re-publishing the pre-solicitation on www.fbo.gov would confuse contractors.
The USACE also agreed with Recommendation 2.c. and stated that the project title and
location error was noted as a material omission in the March 31, 2011, report to DoD and
that the USACE submitted a request to correct the project title and location information
for HDR Architecture to the OMB.

Our Response
We consider the comments from the USACE regarding Recommendation 2.a. and 2.c. as
partially responsive. The USACE modified task order 0012 for contract
W912HN-06-D-0063 by correcting the project number and location; however, contract
line item no. 0004 still read Travis Air Force Base instead of Fort Hood as the project
location. We request that the Commanding General, USACE modify task order 0012 and
cite Fort Hood as the correct project location in line item no. 0004. Although the
USACE’s response met the intent of Recommendation 2.c., we request that the
Commanding General, USACE provide a copy of the March 31, 2011, omission report to
DoD and a copy of the USACE’s change request to the OMB.

After receiving management comments, USACE provided a copy of the revised award
posting from www.fbo.gov. Even though the USACE did not post the pre-solicitation for
contract W912HN-06-D-0063, task order 0012, we consider comments from USACE
responsive to the intent of Recommendation 2.b. We require no further comments.




                                           10
Appendix. Scope and Methodology
We conducted this audit from August 2009 through March 2011. We generally complied
with government auditing standards. We followed the audit planning and most fieldwork
standards for this audit. However, due to the scope of our audit, we did not fully comply
with standards for computer-processed data. Generally accepted government auditing
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions based on our audit objectives.
We believe omitting some aspects of the standard on computer-processed data did not
limit our ability to conclude accurately on our audit objectives. See the “Use of
Computer-Processed Data” section below for further discussion.

The overall objective is to evaluate DoD’s implementation of plans for the Recovery Act.
To accomplish our objective, we audited the planning, funding, initial project execution,
and tracking and reporting of the Recovery Act hospital replacement project.
Specifically we determined whether:

           •   the selected projects were adequately planned to ensure the appropriate
               use of Recovery Act funds (Planning);
           •   funds were awarded and distributed in a prompt, fair, and reasonable
               manner (Funding);
           •   contracts awarded were transparent, competed, and contained required
               Recovery Act FAR clauses (Initial Project Execution); and
           •   recipients’ use of funds was transparent to the public; and the benefits of
               the funds were clearly, accurately, and timely reported (Tracking and
               Reporting).

Because of the status of the AE contracts, we reviewed all of the phases for planning and
design related to the justification and sizing of the Recovery Act replacement hospital.
We did not review the justification for related efforts such as the replacement athletic
complex. Because of the status of the contracts at the time of our visit to Fort Hood, we
limited our review of the construction contracts to the planning and funding phases.

We contacted or met with personnel from TMA; MEDCOM; the Great Plains Regional
Medical Command; the Patient Administration Systems and Biostatistics Activity; the
Army Health Facility Planning Agency; the Army Joint Medical Facilities Office;
III Corps; CRDAMC; USACE-Headquarters, and Fort Worth, Savannah, and Huntsville
Districts; and The Innova Group, Austin, TX. We obtained pertinent information from
DD Form 1391 “Military Construction Project Data” May 2009; CRDAMC pre-planning
documentation; “Charrette Report” August 2009; environmental assessment; Fort Hood
active duty and other beneficiary demographics; CRDAMC program for design and the
health care requirements analysis; CRDAMC relative value units from the Composite
Health Care System (CHCS); FY2003 to FY2015 population data from the Army
Stationing and Installation Program; FBO Web site for pre-solicitation, modification, and
award postings; FADs; and Defense Enrollment Eligibility Reporting System data. We



                                            11
also reviewed laws, policies, and guidance relating to medical military construction and
implementation of the Recovery Act. Although we determined whether the contractor
reported in accordance with FAR 52.204-11 and reviewed the data for reasonableness, we
did not validate the data reported by the contractor to the www.recovery.gov Web site at
this time. We plan to address the adequacy of recipient reporting in a future DoD OIG
report.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DoD Office of Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed them to quantify the risk
based on expert auditor judgment and other quantitatively developed risk indicators.
QMAD used information collected from all projects to update and improve the risk
assessment model. QMAD selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by USACE.

Use of Computer-Processed Data
We relied on computer-processed data from Army Stationing and Installation Program,
MCFAS, CHCS, Defense Eligibility Enrollment Reporting System, FBO Web site,
CEFMS, and DD Form 1391 Processor System.

The Army Stationing and Installation Program, through its Common Operating Picture,
provides the official Headquarters, Department of the Army authorized planning
populations for permanently assigned unit personnel and official students, by location and
fiscal year. MCFAS projects the number and location of people eligible for medical
benefits within the Department of Defense Military Health System. We noted variations
in the demographic information; however, we deemed none of the variations significant
because hospital space characteristics are generally unaffected by small to moderate
changes in the population. CHCS is an integrated health care information system used to
automate and integrate the functions performed by the hospital staff and to facilitate the
delivery of health care and military treatment facility administration. Relative value
units, as reported by CRDAMC, were derived from CHCS patient-level Standard
Ambulatory Data Records. The Defense Eligibility Enrollment Reporting System serves
as the database of record for beneficiary eligibility, provides a common medical
enrollment platform, and provides primary care manager assignments. Because this was
the best information available at the time of the audit and the use of resources required to


                                            12
validate the information would not be prudent, we did not test the reliability or accuracy
of these systems.

FBO is a single, government-wide point-of-entry for Federal Government procurement
opportunities. CEFMS, the USACE financial management system, records financial
transactions related to contracting actions. The DD Form 1391 Processor is a Web-
enabled system permitting access and various password-protected capabilities, including
preparation, certification, and review associated with the preparation of DD Forms 1391.
We tested the accuracy of the computer-processed data by comparing data generated by
each system with the DoD expenditure plans, FADs, and contracting documentation to
support the audit conclusions. We also interviewed program officials responsible for
reporting on Recovery Act contract actions and for managing Recovery Act funding. We
determined that the data were sufficiently reliable for our audit purposes.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            13
U.S. Army Corps of Engineers Comments





                                       DEPARTMENT OF THE ARMY
                                        u.s.. ARM
                                        u.s   ARMYY CORPS OF ENGINEERS
                                           WASHINGTON , D.C. 20314-1000




       CEJR
       C EIR                                                                          IS April
                                                                                      15 Apri l 20 11

        MEMORAND
        MEMORANDUUM
                  M FOR U.S
                         .S.. Department of Defen
                                             Defense,
                                                    se, Office of the In
                                                                      Inspeclo
                                                                         spectorr General
                                                                                  General
                              400 Army Navy Drive
                                                Drive,,
                              Arlington,, Virginia 22202-4
                              Arlington            22202-4704
                                                            704

       SUB JECCT:
                T : U.S. Aml
                          AmlYY Co  rpss of
                                 Corp    o f Engineers Re
                                                       Revivised Draft Repon
                                                             sed Dmft  Report Re   Ress ponse to 00010
                                                                                                 DODIG
       Audit on American Recovery and Reinvestment Act Project   Projecl-- ''''''Hos
                                                                                  ospital
                                                                                     pital Replacement
       Phase I"
              " atl Fort Hood,
                          ood , Tex as,, Was Properl
                                Texas         Properlyy 1)lanned
                                                        Planned;; However,
                                                                    owever, Trans ransparency
                                                                                        parency Could be
       Improvved , Project o. D2009-DOOOLF-024S .001,
       Impro                                             00 1, dated 14 March 20 11     II


        1I. Referenc
            Referencee DODIG report,, subject as above
                       DODJG report              above..

       2. USACE comment
                commentss are attached.
                              aU8ched.


           Ms. Tern Jackson, at_
                                   Click to oraddemaJPEG
                                                     il Via
                                                         file     a_ _
       3. If you ha.ve additiona~ase c~ nlact l.he ~ed or mwint of contact,




                                                         Juv'~: Cl,~~-h1
                                                         Juv'~~ Q, ~~-01 Jr~1..--
                                                                         Jd1..-,
       Encl                                             BRENDA L.
                                                        Deputy Chief
                                                                          ra~ES
                                                                          ~~ES                zr
                                                                                              tr
                                                        HQ Internal Review Office




                                                                     14
15
~UBJECT
~US          u.s. Anny Corps of Engineers Revised Draft Report Response to DODIG
     JECT:: ltS.                                                                 ODlG Audit on
American Recovery and Re investmen
                              nvestmentt Act Project
                                             Project-- "Hosp itaJ Replacement Phase I"
                                                       "Hospital                    I" at Fort
Hood,, Texas
Hood    Texas,. Was P
                    Properl
                     roper ly P         Howeverr, Transparency Could be Improved
                               lanned;; Howeve
                              Planned                                    improved,
Projec
Projectt No. D2009-DOOOLF-0245.00I , dated 14 March 2011 20 11




    Recommendation:
2b. R   ecommendation : Correc
                             Correctt posti ngss related to contrac
                                      posting               contractt W912HN-06-0-0063,
                                                                      W9 12HN-06-D-0063, task orde
                                                                                                orderr
0012, on www.fbo.govtop
             www.fbo.govtoproperlyidentifytheprojectas
                                roperlyidentifytheprojectasProject7
                                                                  Project 74650
                                                                           4650andpost
                                                                                and post the pre-
solic ita tion for task orde
       tation           orderr 0012 on www.fbo.gov.

        Comm and Res ponse
        Command          ponse.. Co
                                 Concur.              title
                                    ncur. The project ti tle and number
                                                                  umber were corrected o n the
posting located o n fbo.gov
                     tho.gov to properly identify the project. However, the contract worr k is
completed and to republish
                   republish the pre-solicitation on fbo
                                                     tho.gov
                                                          .gov wo uld co
                                                               would     nfuse contractors.
                                                                      confuse  contractors. Correc tive
                                                                                            Corrective
action co
action    mpleted, correc
       completed          tion enc
                    correction encllosed.

le
2e.. Recomm
      ecommendation.
              end ation. Oversee contractor reporting to ensure the co     ntractor, HDR
                                                                         contractor
Architecture
Architecture,, us es the appropriate project ti tle and project location when report
               uses                                                                  ing reci
                                                                              reporting       pient
                                                                                         recipient
information required by th
information                thee Recovery Act.

          Command
          Co mm and Res pon    se. Co
                           ponse.     ncur. A reque
                                   Concur.          st to change the information was submitted to
                                                 uest
OMB by HQ USACE ARRA and is currently pendin      pendingg approval
                                                            approval.. Since the record is marked as
final , OMS
        OMB will have to chan    ge the information
                            change      information.. HQ-  USACE Co
                                                      HQ-USACE         ntracting Office is coordinating
                                                                    Contracting
the re  sponse with OM
    response         OMB.       Click to add JPEG file
                          B. We have no timeline when the updates will be accep     ted by OMS
                                                                              accepted      OMB
andlo rr co rrected onn the Rccovery
         corrected          Recovery .gov site.

HQ . Co  ntracting Office rrepresentatives
      Contracting              epresentatives stated that the error to th
                                                                        thee Place of Performance section
   thee W912HN -06 ·0·006
of th                            3-00 12 vendor rreport wa
                       -0 -0063-00                       wass noted in the Material
                                                                            Material Om
                                                                                     Omiission
                                                                                          ssion section of
the Corps Q-4 2010 repo  report
                              rt to DOD
                                    DOD,, submi
                                           submitted
                                                  tted 31 March 2020111. A request was made to OMSOMB to
change the PoP infonnation
                   information on the Q-4 report to rreflect the changes requeste      d by the I[G. Th
                                                                               requested             Thee
change reque
         requesst is still           andd we do not have a timeline when it may be acce
                     sti ll pending an                                                       pted.
                                                                                        accepted.

    Coor dination. Responses to th
3. Coordination.                   thee reco
                                        recommendations
                                             mmendations were provided       by.!!I!!III!!•••,
Ch
Chie        Contracting. SAS and coo
    ieff of Contracting,              rdinated with SAS Project Management
                                 coordinated
P rogram Manager
            Manager,,                     SWD and                       Deputy C hief, Mili
                                                                                        Military
                                                                                             taty
Programs., Southwestern Division Regional In
Programs                                       Inttegration Team Directorate of Mil
                                                   egration                         itary Program
                                                                                Military          s.
                                                                                          Programs.




                                                                 16
